                                                      OFFICE   OF   INSPECTOR GENERAL




                               Audit Report                                                      2012-AA-B-001




                                            2012 Audit of the Board’s
                                         Information Security Program




                                                            November 14, 2012




 www.federal reserve.gov/oig
www.consumerfinance.gov/oig                   BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
          11/12                                    CONSUM ER FIN ANC IAL PR OTEC TION B UR EAU
Report Contributors
     Robert McMillon, OIG Manager
     Satynarayana-Setty Sriram, Senior IT Auditor
     Andrew Gibson, IT Auditor
     Joshua Dieckert, IT Auditor
     Adam Raley, IT Auditor
     Peter Sheridan, Senior OIG Manager
     Andrew Patchan Jr., Associate Inspector General for Audits and Attestations




Abbreviations
BISPMS                 Board Information Security Program Management System

Board                  Board of Governors of the Federal Reserve System

BS&R                   Division of Banking Supervision and Regulation

CIO                    Chief Information Officer

DHS                    Department of Homeland Security

FISMA                  Federal Information Security Management Act of 2002

GSS                    General Support System

IG                     Inspector General

ISO                    Information Security Office

IT                     Information Technology

NIRT                   National Incident Response Team

NIST                   National Institute of Standards and Technology

NRAS                   National Remote Access Services

OIG                    Office of Inspector General

OMB                    Office of Management and Budget

PIV                    Personal Identity Verification

POA&M                  Plan of Action and Milestones

RMC                    Risk Management Committee

RMF                    Risk Management Framework

SP 800-37              Special Publication 800-37, Revision 1, Guide for Applying the Risk Management Framework to
                       Federal Information Systems

SP 800-39              Special Publication 800-39, Managing Information Security Risk

SP 800-53              Special Publication 800-53, Revision 3, Recommended Security Controls for Federal Information
                       Systems and Organizations

SP 800-65              Special Publication 800-65, Integrating IT Security into the Capital Planning and Investment Control
                       Process

SP 800-137             Special Publication 800-137, Information Security Continuous Monitoring (ISCM) for Federal
                       Information Systems and Organizations

US-CERT                United States Computer Emergency Readiness Team
November 14, 2012

MEMORANDUM

TO:             Members of the Board
                Board of Governors of the Federal Reserve System

FROM:           Mark Bialek
                Inspector General

SUBJECT:        OIG Report: 2012 Audit of the Board’s Information Security Program

The Office of Inspector General (OIG) is pleased to present its report on the 2012 Audit of the Board’s
Information Security Program. We performed this audit pursuant to requirements in the Federal
Information Security Management Act of 2002 (FISMA), Title III, Public Law 107-347 (December 17,
2002), which requires each agency inspector general (IG) to conduct an annual independent evaluation of
the agency’s information security program and practices. Our specific audit objectives, based on the
legislation’s requirements, were to evaluate the effectiveness of security controls and techniques for
selected information systems and compliance by the Board of Governors of the Federal Reserve System
(Board) with FISMA and related information security policies, procedures, standards, and guidelines. We
also followed up on the status of the Board’s corrective actions in response to open recommendations
from our prior FISMA reports and security control reviews of specific systems.

We conducted our audit of the Board’s compliance with FISMA from May 2012 through October 2012,
and we reviewed security controls for the Board’s information systems throughout the year, in accordance
with generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

As part of an agency’s annual FISMA reporting, the Department of Homeland Security (DHS) requires
that both the Chief Information Officer (CIO) and the IG perform an analysis of certain information
security program components. As discussed in Office of Management and Budget (OMB) Memorandum
10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive Office of the President
and the Department of Homeland Security (DHS), DHS is exercising primary responsibility within the
executive branch for the operational aspects of federal agency cybersecurity with respect to FISMA.
OMB remains responsible for the submission of the annual FISMA report to Congress.

As stated in previous FISMA guidance, agencies are required to adhere to DHS direction to report data
through CyberScope (an automated FISMA reporting tool). In February 2012, DHS issued reporting
 Members of the Board                                             2                                           November 14, 2012


requirements for IGs’ analysis of their respective agency’s information security management performance
in line with the requirements of FISMA. 1 In accordance with DHS’s requirements, our FISMA review
included an analysis of the Board’s information security–related processes in the following areas: risk
management, continuous monitoring management, plan of action and milestones (POA&Ms), identity and
access management, remote access management, configuration management, security training, contractor
systems, contingency planning, incident response and reporting, and security capital planning. Appendix
1 contains our analysis of the Board’s progress in implementing key FISMA, OMB, and DHS
requirements and discusses our observations and recommendations in more detail. In addition to this
report, we will provide our analysis to DHS under separate cover through CyberScope, along with the
CIO’s response, pursuant to DHS’s reporting requirements.

Overall, we found that the Board’s CIO is maintaining a FISMA-compliant approach to the Board’s
information security program that is generally consistent with requirements established by the National
Institute of Standards and Technology (NIST) and OMB. During the past year, the Information Security
Officer (ISO) continued to issue and update information security policies and guidelines. In addition,
progress has also been made to implement (1) an enterprise information technology (IT) risk assessment
framework initiative and a continuous monitoring strategy as well as (2) a new automated workflow
support tool to provide an automated method for documenting, reviewing, and approving the security
posture of all Board information systems. These efforts were undertaken to transform the Board’s
Certification and Accreditation process into the NIST Risk Management Framework (RMF).

An additional part of the overall risk assessment framework requires the CIO to ensure that risk
assessments are adequately identifying, evaluating, and documenting the level of risk to information
systems based on potential threats, vulnerabilities, and currently implemented or planned controls to
determine whether additional controls are needed. Although progress has been made by the ISO to
address the NIST guidance regarding risk management, the enterprise IT risk assessment framework
needs to be fully implemented Board-wide and the automated workflow support tool needs to be fully
operational for the Board to meet the requirements of NIST’s organization-wide risk management
approach. Our 2011 report contained one recommendation: that the CIO complete and fully implement
the enterprise IT risk assessment framework Board-wide and ensure that the automated workflow support
tool is fully operational in order to comply with updated NIST guidance on the new RMF. This
recommendation will remain open as work continues on various phases of the IT risk assessment
framework initiative and continuous monitoring strategy. We will continue to monitor the ISO’s actions
in implementing the enterprise IT risk assessment framework Board-wide, which includes improving
overall risk assessments.

This report contains two new recommendations related to the Board’s contractor oversight program and
incident response and reporting program. First, to ensure that all Board data meet the requirements of the
Board’s Information Security Program and NIST standards and controls, we recommend that the CIO
develop and implement a security review process for third-party systems located outside the Federal
Reserve System to ensure that systems employ information security controls sufficient to meet the
requirements of the Board’s information security program and NIST standards. Second, we recommend
that the CIO document the roles and responsibilities of the Board and National Incident Response Team
(NIRT) staffs supporting Board incidents and analyze what changes are needed to existing agreements to
ensure that the respective roles and responsibilities of NIRT and the Board are specified.

As stated previously, we also review security controls implemented for Board information systems on an
ongoing basis. During the past year, we completed security control reviews for five Board systems: (1)
the Board’s third-party applications operated by the Federal Reserve Bank of Richmond in support of the
Board’s Division of Banking Supervision and Regulation (BS&R), (2) the Federal Reserve System’s
Office of Employee Benefits and its third-party contractors, (3) Contingency Planning Controls for the


1. U.S. Department of Homeland Security, Federal Information Security Memorandum, FISM 12-02, February 15, 2012.
Members of the Board                                3                                   November 14, 2012


Division of IT General Support System (GSS), (4) National Remote Access Services (NRAS) System,
and (5) the Board’s Public Website. Our reviews of these systems’ information security controls
identified areas in which controls need to be strengthened. Given the sensitivity of the issues involved
with these reviews, the specific results have been provided to management in separate restricted reports
that will be summarized on our publicly available website. During this year’s FISMA review, we also
started security control reviews of the Board’s National Examination Database system and the
commercial data exchange service system.

We performed our security control review testing based on selected controls identified in NIST Special
Publication 800-53, Revision 3, Recommended Security Controls for Federal Information Systems and
Organizations (SP 800-53). The controls are divided into “families” (such as access, risk assessment, and
personnel security) and include controls that can be categorized as system specific or common (applicable
across agency systems). Consequently, although our focus was on evaluating specific applications, we
also assessed some of the common security controls that affect most, if not all, of the applications. We
will continue to follow up on actions taken regarding our FISMA and security control review report
recommendations as part of future audit work related to information system security.

We provided a draft of our report to the Director of the Division of IT, in her capacity as the CIO for
FISMA, for review and comment. Her response is included as appendix 2. In her response, the Director
agreed with the two recommendations in our report and has initiated remediation efforts to address both
issues.

We appreciate the cooperation that we received from the Board during our review. We are providing
copies of this audit report to Board management officials. The report will be added to our publicly
available website and will be summarized in our next semiannual report to Congress. Please contact
Andrew Patchan Jr., Associate Inspector General for Audits and Attestations, at 202-973-5003 if you
would like to discuss this audit report or any related issues.

cc: Sharon Mowry
    Geary Cunningham
    Raymond Romero
    Charles Young
    J. Anthony Ogden
    Andrew Patchan Jr.
Appendix 1
OIG’s Analysis of the Board’s Progress in
Implementing Key FISMA, OMB, and DHS
Requirements


The following is our analysis of the Board’s progress in implementing key FISMA, OMB,
and DHS requirements, including progress to date and work to be done. Our analysis
identifies two new recommendations (pages 16 and 18).


Risk Management Program

       Requirement:
       FISMA requires organizations to develop and implement an organization-wide
       information security program for the information and the information systems that
       support the operations and assets of the organization, including those provided or
       managed by another organization, contractor, or other source. NIST recently
       completed a fundamental transformation of the certification and accreditation process
       into a comprehensive, near-real-time security life cycle process as part of an RMF.
       NIST’s RMF is based on special publications that guide agencies through a structured
       process to identify the risks to the information systems, assess the risks, and take steps
       to reduce risks to an acceptable level.

       Figure 1 shows NIST’s RMF and identifies NIST’s related guidance.

       Figure 1: NIST’s Risk Management Framework




       Source: NIST Computer Security Division, Computer Security Resource Center.




2012-AA-B-001                                                                                  5
    NIST SP 800-53 states that an organization-wide risk management strategy includes,
    for example, an unambiguous expression of the risk tolerance for the organization,
    acceptable risk assessment methodologies, risk mitigation strategies, a process for
    consistently evaluating risk across the organization with respect to the organization’s
    risk tolerance, and approaches for monitoring risk over time.

    NIST Special Publication 800-37, Revision 1, Guide for Applying the Risk
    Management Framework to Federal Information Systems (SP 800-37) expands the
    concept of risk management and covers a strategic-to-tactical organizational approach
    to risk management. SP 800-37 also promotes NIST’s RMF as the concept of near-
    real-time risk management and ongoing information system authorization through the
    implementation of robust continuous monitoring processes, with emphasis on the
    selection, implementation, and assessment of security controls; information systems
    authorization; and security control monitoring.

    NIST Special Publication 800-39, Managing Information Security Risk (SP 800-39)
    states that it is imperative that leaders and managers at all levels understand their
    responsibilities and are held accountable for managing information security risk—that
    is, the risk associated with the operation and use of information systems that support
    the missions and business functions of their organizations. Managing information
    security risk, like risk management in general, is not an exact science. It brings
    together the best collective judgments of individuals and groups within organizations
    responsible for strategic planning, oversight, management, and day-to-day operations.


    Progress to date:
    The Board’s risk management approach has traditionally focused on the information
    system level, which was based on NIST Special Publication 800-30, Risk Management
    Guide for Information Technology Systems; the initial SP 800-37 (dated May 2004);
    SP 800-53; and other NIST publications. Revision 1 to SP 800-37 provides guidance
    for agencies to establish a risk management program that addresses risk from (1) an
    organizational perspective with the development of a comprehensive governance
    structure and organization-wide risk management strategy; (2) a mission and business
    process perspective, guided by the risk decisions at the organizational level; and (3) an
    information system perspective, guided by the risk decisions at the organizational
    level and the mission and business perspective.

    Figure 2 shows the three-tiered approach introduced by SP 800-37, Revision 1, and
    expanded upon in SP 800-39, that revolves around the concept that managing
    information system–related security risks is a complex, multifaceted undertaking that
    requires the involvement of the entire organization—senior leaders providing the
    strategic vision and top-level goals and objectives for the organization (Tier 1); mid-
    level leaders planning and managing projects (Tier 2); and individuals on the front
    lines developing, implementing, and operating the systems supporting the
    organization’s core missions and business processes (Tier 3).




6                                                                              2012-AA-B-001
       Figure 2: NIST’s Three-tiered Approach to Risk Management




       Source: NIST SP 800-37, Revision 1, Guide for Applying the Risk Management Framework to Federal Information
       Systems, February 2011.


       To address risks at the organizational level and the mission/business level, the ISO developed
       an enterprise IT risk assessment framework initiative and began implementing it within the
       Division of IT. When fully implemented, the enterprise IT risk assessment framework is
       anticipated to identify those risks that most greatly inhibit the Board from achieving its
       strategic objectives. A key feature of the IT risk assessment framework is the development of
       a risk register. After the risk register is developed for the Division of IT, the ISO plans to roll
       out the risk register approach to the other Board divisions. As identified in the framework, the
       first milestone was to discuss the risk register with the division’s Information Security
       Committee members first and then to receive input directly from the other Board divisions.
       During the past year, the ISO met with appropriate division officers to introduce the risk
       management program and the risk register and to discuss the risks that the Division of IT has
       identified. The next step will be to formalize the register so that each division can complete
       its own register.

       The Division of IT has established a Risk Management Committee (RMC). A key priority for
       the RMC is to create an approach to further FISMA and Enterprise Risk Management
       compliance throughout the Board. Under the direction of the RMC, the Division of IT has
       begun a risk assessment of all areas of the division. The process used for this review will
       serve as a model for all Board divisions to follow when conducting their own business risk
       reviews going forward.

       In addition, the Division of IT strategic planning initiatives continue to include milestones and
       priorities that focus on risk management. The purpose of these initiatives is to identify,
       evaluate, and manage risks that could impede the successful achievement of the Board’s
       mission and objectives. Through this process, Board divisions are expected to identify the
       residual risks that cannot be mitigated to their satisfaction and that, if realized, would be
       impediments to achieving their objectives.




2012-AA-B-001                                                                                                        7
    Work to be done:
    The Division of IT has had components of the three-tiered risk management program
    shown in figure 2 in place in prior years with a system-level focus based on the
    existing guidance at that time. NIST SP 800-37 and SP 800-39 have placed further
    emphasis on overall organizational risk management at the Tier 1 and 2 levels. The
    additional risks that are considered at the organizational level will ultimately need to
    be filtered down to the individual information systems and IT GSS. The ISO has
    begun implementing the risk assessment framework initiative within the Division of
    IT, as well as portions of the continuous monitoring strategy that include a new
    automated workflow support tool; however, additional actions need to be finalized
    before the risk program is fully in place and operable.

    Our 2011 FISMA report included a recommendation that the CIO complete and fully
    implement the enterprise IT risk assessment framework across all divisions and ensure
    that the automated workflow support tool is fully operational to comply with updated
    NIST guidance on the new RMF. Although the ISO has made progress in addressing
    the new NIST guidance regarding risk management, an enterprise IT risk assessment
    framework needs to be fully implemented Board-wide and the automated workflow
    support tool fully operational for the Board to meet the requirements of NIST’s
    organization-wide risk management approach. Accordingly, our 2011 FISMA
    recommendation will remain open. We will continue to monitor the ISO’s actions in
    implementing the enterprise IT risk assessment framework Board-wide.


Continuous Monitoring Program

    Requirement:
    In September 2011, NIST issued Special Publication 800-137, Information Security
    Continuous Monitoring (ISCM) for Federal Information Systems and Organizations (SP 800-
    137). SP 800-137 ties continuous monitoring into the NIST RMF. Although NIST and OMB
    have placed a focus on continuous monitoring, FISMA has always required that an agency’s
    information security program include an entity-wide continuous monitoring program to assess
    the security state of information systems in accordance with NIST and OMB FISMA-related
    requirements. SP 800-137 provides new perspectives for manual and automated continuous
    monitoring and details the major phases of establishing, implementing, and maintaining an
    agency information security continuous monitoring program.

    SP 800-137 states that organization-wide monitoring cannot be efficiently achieved through
    either manual processes or automated processes alone. Where manual processes are used, the
    processes are repeatable and verifiable to enable consistent implementation. Automated
    processes, including the use of automated support tools (such as vulnerability scanning tools
    and network scanning devices) can make the process of continuous monitoring more cost
    effective, consistent, and efficient. Many of the technical security controls defined in SP 800‐
    53 are good candidates for monitoring using automated tools and techniques. Real‐time
    monitoring of implemented technical controls using automated tools can provide an
    organization with a more dynamic view of the effectiveness of those controls and the security
    posture of the organization.




8                                                                                    2012-AA-B-001
       Organizations take the following steps to establish, implement, and maintain a
       continuous monitoring program:

       •   Define a continuous monitoring strategy.
       •   Establish a continuous monitoring program.
       •   Implement a continuous monitoring program.
       •   Analyze data and report findings.
       •   Respond to findings.
       •   Review and update the continuous monitoring strategy and program.


       Progress to date:
       The Board’s continuous monitoring program has traditionally included ongoing assessments
       of security controls. The ISO continues to conduct security assessments on a three-year cycle,
       with all systems undergoing annual testing. For major applications, one-third of the total
       controls will be tested every year, although certain critical controls will still be tested every
       year. For general support systems, one-third of the individual components will be tested every
       year. SP 800-137 requires agencies to move toward a continuous monitoring program that
       enables organizations to move from compliance-driven risk management to data-driven risk
       management that provides organizations with information necessary to support risk-response
       decisions, security status information, and ongoing insight into security control effectiveness.

       The ISO has developed a continuous monitoring strategy based on a framework devised by
       DHS in concert with other agencies, such as the Department of State. DHS has developed the
       framework as a maturity model that will help agencies determine next steps in developing a
       continuous monitoring program. The framework consists of four subsystems:

       •   Sensor Subsystem
       •   Database/Repository Subsystem
       •   Analysis/Risk Scoring Subsystem
       •   Presentation and Reporting Subsystem

       The ISO’s continuous monitoring strategy lists tools (such as various software scanning and
       logging tools) that are currently in use or planned for use at the Board. The continuous
       monitoring strategy entails leveraging these tools and processes already in place to evolve the
       program into an automated and integrated continuous monitoring program. Additional
       software has been acquired for expanded vulnerability scanning and configuration-setting
       monitoring, as well as software for enhanced logging capabilities. The ISO is also
       incorporating the use of the automated workflow support tool that will make use of many of
       the security monitoring mechanisms already in place for the Board’s IT infrastructure and
       embedded division IT operations. The tool will provide an automated workflow method for
       documenting, reviewing, and approving the security posture of all Board information systems.


       Work to be done:
       At the time of our previous audit in 2011, the ISO’s continuous monitoring strategy reflected
       implementation of this framework through September 2012. September 2012 coincides with
       the one-year time frame for agencies to be in compliance with SP 800-137 standards and
       guidelines. The ISO has recently upgraded the continuous monitoring strategy and is
       currently adding additional Board information system security data into the automated
       workflow support tool. These actions will result in an automated workflow method for


2012-AA-B-001                                                                                         9
     documenting, reviewing, and approving the security posture of all Board information systems.
     The ISO has indicated that all information system security plans and risk assessments are
     currently being loaded into the automated tool. The ISO anticipates that all the tools slated for
     the overall continuous monitoring strategy will be in place no later than 2013. We will
     continue to monitor the overall development of the new continuous monitoring initiatives.


Plan of Action & Milestones Program

     Requirement:
     FISMA requires agencies to establish a process for addressing any deficiencies in information
     security policies, procedures, and practices. OMB guidance requires agencies to prepare and
     submit POA&Ms for all program reviews and evaluations in which IT security weaknesses are
     identified. OMB guidance further states that an agency’s POA&M program should track and
     monitor known information security weaknesses, include documented policies and procedures,
     and establish and adhere to reasonable remediation dates. The guidance also calls for the CIO
     to centrally track and independently review and validate the POA&M activities at least
     quarterly.


     Progress to date:
     The Board has established internal processes to govern its practices around POA&Ms. These
     processes include a quarterly submission by the Board divisions tracking POA&M progress,
     as well as a quarterly independent review and validation by the Information Security
     Compliance group of the Division of IT to verify the progress of the open POA&Ms. There
     are several repositories used to track the ongoing progress of POA&Ms within the Board. The
     ISO has begun to transition POA&M information into the Board’s automated workflow tool
     with the intent to centrally monitor POA&Ms. However, all POA&M information has not yet
     been migrated to the automated workflow tool.


     Work to be done:
     We verified that the Information Security Compliance group is continuing the ongoing
     POA&M verification process during the overall development of the new continuous
     monitoring initiatives. We will continue to monitor the ISO’s progress in implementing the
     automated workflow tool and integrating POA&M data.


Identity and Access Management Program

     Requirement:
     The Board is required to establish an identity and access management program that is
     consistent with FISMA requirements, OMB policy, and applicable NIST guidelines. The
     Board’s information security program requires controls to be incorporated for all information
     systems that ensure that each user, or process acting on behalf of a user, is uniquely identified
     and authenticated. The Board’s information security program requires that only authorized
     users have access to information systems and that access be based on business requirements.



10                                                                                     2012-AA-B-001
       Further, security officials are required to implement account management processes for
       establishing, activating, modifying, disabling, and removing system accounts.


       Progress to date:
       Identification and authentication includes security controls designed to verify the identity of
       individual users, processes, or devices as a prerequisite to allowing access to information
       systems and data. Identification and authentication can be accomplished using various means,
       such as passwords, card tokens, biometrics, or some combination thereof. We found that the
       ISO has established and is maintaining an identity and access management program that is
       generally consistent with NIST and OMB FISMA requirements.

       The Division of IT’s GSS provides identification and authentication services that Board
       systems rely on. The Board has developed a central process for issuing and managing
       network user identification. As part of this process, the Board’s human resources system
       generates a unique network ID prior to an employee’s start date. This information is
       communicated to the IT security unit, which adds the user to the Board’s network and other
       systems as needed.


       Work to be done:
       As part of the Board’s physical security program, Personal Identity Verification (PIV) cards
       are used for physical access control to its buildings, but are not used to provide access to
       information systems. Multifactor authentication at the Board is implemented with use of a
       token that is separate from the PIV card that all employees have and use for access to Board
       buildings. As reported in our 2011 FISMA report, the ISO had scheduled a pilot program to
       test the use of PIV cards for access to the Board’s network. Due to technical difficulties and
       higher-priority projects, the formal pilot has been delayed. However, the Board has made
       progress in analyzing the use of PIV cards for Windows authentication, Windows
       administration authentication, hard-disk encryption, and remote access.

       Our 2010 FISMA report noted that the Board had not implemented a solution to identify or
       authenticate devices attached to the network. We did note that compensating controls were in
       place and that a pilot program was scheduled for 2012 to test a solution to identify devices
       attached to the Board’s network. During our 2012 FISMA review, we found that the
       scheduled pilot program for authenticating devices was delayed due to budget and resource
       constraints. Board officials notified us that the pilot program is planned for later this year. As
       part of our ongoing work related to information security, we will continue to monitor the
       ISO’s efforts to strengthen the Board’s identity and access management program.


Remote Access Program

       Requirement:
       NIST requires that agencies document allowed methods of remote access, establish usage
       restrictions, monitor for unauthorized access, authorize access, and enforce security
       requirements for all users of the organization’s systems.




2012-AA-B-001                                                                                         11
     Progress to date:
     The Federal Reserve System continues to have an established remote access program, NRAS,
     which is managed by the Federal Reserve Bank of New York and services both the Board and
     the Reserve Banks. In 2012, we completed a security control review of the NRAS system.
     Our objectives were to evaluate the effectiveness of selected security controls and techniques
     to ensure that the Board maintains a remote access program that is generally compliant with
     FISMA requirements. Our review was divided into two separate phases: the first phase
     primarily addressed technical and operational control areas, and the second phase addressed
     procedures. Overall, our review found that the Federal Reserve’s remote access system is
     technically and operationally sound and that the Board has developed an adequate process to
     administer the token keys for Board personnel.


     Work to be done:
     During the most recent audit, NRAS was noted as being operationally sound; however, we
     identified opportunities to strengthen information security controls to be in compliance with
     federal regulations. The Federal Reserve Bank of New York continues to implement an
     information security program that is based on standards and policies developed by NIST. The
     program provides management direction and requirements for the support of information
     security and is approved, published, and communicated, as appropriate, throughout the Federal
     Reserve System. During 2012, the NRAS system was assessed and received an authorization
     to operate.

     Although NRAS has received an authorization to operate, the Federal Reserve Bank of New
     York continues to implement information security enhancements to meet the intent of our
     audit recommendations. During the upcoming year, we will follow up on our open
     recommendations and continue to monitor the Reserve Bank’s progress with its security
     program to bring the NRAS system into full compliance with FISMA.


Security Configuration Management

     Requirement:
     The Board is required to establish and maintain a security configuration management program
     that is generally consistent with NIST and OMB FISMA requirements. SP 800-53 established
     configuration management controls that cover operational aspects such as policy, baseline
     configuration, configuration change control, security impact analysis, access restrictions for
     changes, configuration settings, least functionality, information system component inventory,
     and configuration management plan.

     NIST Special Publication 800-128, Guide for Security-Focused Configuration Management of
     Information Systems, states that security-focused configuration management of information
     systems involves a set of activities that can be organized into four major phases—Planning,
     Identifying and Implementing Configurations, Controlling Configuration Changes, and
     Monitoring. These different phases address the key aspects of maintaining a desired security
     posture in the Board’s environment.




12                                                                                  2012-AA-B-001
       Progress to date:
       The Board’s security configuration management program is generally consistent with NIST
       and OMB FISMA requirements. The ISO has established operating environment documents
       and procedures for its infrastructure services. This configuration management process is an
       ongoing operational support function and covers baseline security controls and corresponding
       configuration settings of infrastructure components. The authorized changes to configurations
       are documented in the Division of IT’s change control system. The patches and upgrades that
       are essential for hardware, operating systems, and software are applied during a scheduled
       maintenance window as required under the Board’s information security program. The
       changes to configurations require approval from system owners and require necessary testing
       and analysis.


       Work to be done:
       As part of the Board’s continuous monitoring program, the CIO continues to implement
       network monitoring tools, including audit log consolidation processes, to monitor
       configuration settings. During 2012, the OIG has started scanning the Board’s configuration
       baselines using automated scanning tools. As part of our ongoing work related to information
       security, we will continue to monitor the ISO’s efforts to strengthen the Board’s configuration
       management program


Security Training Program

       Requirement:
       FISMA requires that an agency’s information security program include security awareness
       training to inform all personnel, including contractors and other users of information systems
       that support the agency’s operations and assets, of the information security risks associated
       with their activities, as well as their responsibilities for complying with agency policies and
       procedures. FISMA also requires that the CIO train and oversee personnel with significant
       responsibilities for information security. NIST and OMB require that the program include (a)
       security awareness training for the entire staff, (b) training content based on the organization
       and roles, and (c) tracking of employees with significant information security responsibilities
       that require specialized training.


       Progress to date:
       The Information Security Compliance group continues to provide ongoing security awareness
       through its website, communications, and various training based on organizational policy
       requirements. The Division of IT’s security awareness webpage is host to items such as
       policies, security articles, and training materials. The webpage offers security articles that
       cover a broad range of security topics.

       The Board’s security training includes basic annual security awareness training, information
       security awareness training for technical and system administration staff, and management
       security awareness training for authorizing officials and system owners.

       The Board requires and tracks annual security awareness training of all employees,
       contractors, and interns with access to the Board network. Also, the Division of IT monitors



2012-AA-B-001                                                                                       13
     the training received by individuals with significant security responsibilities by surveying the
     IT leadership of the various divisions.


     Work to be done:
     The ISO has developed an online training module for individuals with significant security
     responsibilities to be combined with existing security awareness training already implemented.
     The ISO plans to have the training module completed by the end of November 2012. Further,
     the ISO continues to offer training to system owners regarding their FISMA responsibilities
     and will also cover the topic of a risk register. We will continue to monitor the Division of
     IT’s ongoing efforts to provide security training.


Contractor Oversight Program

     Requirement:
     FISMA requires agencies to provide information security for the information and information
     systems that support the operations and assets of the agency, including those provided or
     managed by another agency, contractor, or other source. The Board’s information security
     program requires third parties, including Federal Reserve Banks, other agencies, and
     commercial providers, to employ appropriate security controls to protect Board-provided
     information and services. The level of controls provided by third parties must be comparable
     to NIST standards.


     Progress to date:
     The ISO has developed a security policy that applies to all third parties that collect or maintain
     Board information or that operate or use information systems on behalf of the Board. The ISO
     has also published an inventory guide that outlines how the Board accounts for all information
     assets and tracks the security compliance of all systems, including systems used or operated by
     third parties on behalf of the Board. In addition, the ISO has developed an inventory of
     systems that identifies third-party systems and their risk rating, authorization status, and
     interconnections based on Federal Information Processing Standards 199, Standards for
     Security Categorization of Federal Information and Information Systems.

     The Board’s third-party systems are primarily located within the Federal Reserve Banks;
     however, third-party systems located outside of the Federal Reserve System also exist. The
     ISO and BS&R perform onsite security reviews of Federal Reserve Bank systems that store or
     process Board data to ensure that the systems are meeting the Board’s information security
     program requirements. In addition, BS&R has developed and implemented the Board
     Information Security Program Management System (BISPMS), an automated tool to facilitate
     standardization and consistency in implementation of the requirements of the Board’s
     Information Security Program for Federal Reserve Bank systems that store or process Board
     data. The BISPMS is used by BS&R to conduct security control assessments, store system
     security documentation, and report on compliance activities.

     The Board has developed a process for performing security reviews of third-party systems
     managed by Federal Reserve Banks that store or process Board data to ensure that the systems
     are meeting the Board’s information security requirements. In 2012, we completed a security
     control review that included several third-party Lotus Notes–based systems located at the


14                                                                                     2012-AA-B-001
       Federal Reserve Bank of Richmond that support BS&R. Overall, our review found that
       controls for these systems were adequately designed and implemented to meet Board and
       NIST requirements. However, we identified several opportunities to strengthen the security
       controls around these systems, and we communicated our recommendations to BS&R as well
       as to other relevant parties under separate cover.


       Work to be done:
       The Federal Reserve Banks are not required to follow NIST and OMB guidance but are
       transitioning to an information security program that is based on standards and policies
       developed by NIST. The planned benefits include clarifying information security risks from
       an enterprise perspective and providing better support for Board customers who are already
       utilizing NIST standards and guidance. The transition includes IT infrastructure that Federal
       Reserve Banks rely on for such functions as Internet access, search functionality, remote
       access, and electronic mail. The Federal Reserve Banks plan to transition their respective
       systems to the new program by 2013.

       As previously discussed, the Board has developed a process for performing security reviews
       of third-party systems managed by Federal Reserve Banks; however, the Board does not have
       adequate processes in place to ensure that third-party systems located outside the Federal
       Reserve System meet the requirements of the Board’s information system program and NIST
       standards and controls.

       As part of our ongoing work related to information security, we continue to monitor the ISO’s
       oversight of third parties’ compliance with FISMA and the requirements of the Board’s
       information security program through the security control reviews completed for third-party
       applications located outside of the Federal Reserve System. Our security control reviews
       identified several control deficiencies that will be communicated to Board management in
       separate reports:

       •   During 2012, we performed a security control review of the Aon Hewitt Employee
           Benefits System, a third-party application under the Management Division. Our review
           noted that total reliance had been placed on third-party internal control reviews to gain
           assurance that Board and NIST requirements were being met. The third-party internal
           control reviews did not directly map to and assess compliance with NIST controls and
           standards.

       •   We also performed a security control review of a third-party application utilized for
           external data collaboration and managed by BS&R at the Federal Reserve Bank of
           Philadelphia. Our review noted that the ISO had not completed a detailed onsite security
           review of the application prior to placing the application into production. Instead, we
           noted that BS&R had placed heavy reliance on internal control reviews completed by a
           third-party public accounting firm to gain assurance that effective controls were
           implemented. Further, we noted the review did not directly map to and assess compliance
           with NIST standards and controls.

       Based on our findings during these contractor information security control reviews, we
       concluded that the Board had not obtained sufficient assurance that security controls had been
       effectively implemented to comply with federal and Board guidelines and that the Board’s
       review processes for third-party applications located outside the Federal Reserve System need
       to be enhanced and strengthened.




2012-AA-B-001                                                                                      15
     Recommendation 1:
     We recommend that the CIO develop and implement a security review process for third-party
     systems located outside of the Federal Reserve System to ensure that systems employ
     information security controls sufficient to meet the requirements of the Board’s information
     security program and NIST standards.


     Management’s Response

     The Director of the Division of IT, in her capacity as the CIO for FISMA, stated that she
     agreed with the recommendation and has initiated remediation efforts to address the issue.


     OIG Comment

     In our opinion, the action described by the Director is responsive to our recommendation, and
     we plan to follow up on the division’s actions to ensure that the recommendation is fully
     addressed.


Contingency Planning
     Requirement:
     FISMA requires that agency information security programs include plans and procedures to
     ensure continuity of operations for information systems that support the agency’s operations
     and assets. NIST Special Publication 800-34, Revision 1, Contingency Planning Guide for
     Federal Information Systems, states that information system contingency planning is a
     coordinated strategy involving plans, procedures, and technical measures that enable the
     recovery of information systems, operations, and data after a disruption, including sustaining
     continuity of operations within 12 hours and for up to 30 days, from an alternate site. NIST
     SP 800-53 also establishes contingency planning controls that are essential for recovery and
     reconstitution of an information system in contingency scenarios. These controls cover
     information system operational aspects such as policy, planning, training, testing, alternate
     storage site, alternate processing site, telecommunication services, backup, recovery, and
     reconstitution.


     Progress to date:
     The Board has established and is maintaining a contingency program for the IT GSS that is
     generally consistent with NIST and OMB FISMA requirements. The Board has invested
     resources in the areas of hardware, mainframe computing, network bandwidth, equipment, and
     other logistical necessities to sustain operations at the contingency site. In addition, the Board
     continues to conduct semiannual contingency tests of its mission-critical applications. We
     recently completed an audit of the contingency planning for the IT GSS and, although we did
     not identify any significant discrepancies, we found opportunities to strengthen the IT GSS
     contingency planning by updating documentation and assessing capacity and capabilities.

     Responsibility for the Board’s contingency-related operations is split among various divisions.
     The Management Division is responsible for the logistics and facilities of the contingency site.
     The Division of IT is responsible for ensuring operational readiness of IT infrastructure



16                                                                                     2012-AA-B-001
       services. System owners determine the resources and testing for each of the Board’s systems
       and applications.

       The alternate processing site used by the Board in contingency situations is a shared facility
       and is considered an extension of the Board’s primary data center for IT infrastructure
       operational purposes. Access to the Board’s contingency site is restricted to authorized Board
       staff only. In addition to Board identification badges issued to employees, a separate
       identification badge is necessary to access the contingency site. The issues identified during
       the contingency tests are recorded in the help desk system, and appropriate IT staff is assigned
       to these issues for resolution. The semiannual tests include testing and availability of
       infrastructure services that are essential for mission-critical applications.


       Work to be done:
       Because the responsibility for the Board’s contingency-related operations is split among
       various divisions, there is no coordinated analysis of contingency capabilities across Board
       divisions. Without a coordinated analysis of the semiannual tests and after-action reports, the
       Board lacks assurance that there are adequate capabilities to perform Board operations in the
       event of a contingency situation, as required by NIST and other federal regulations. We
       reported last year that (1) a central point of contact for Board-wide coordination, validation,
       reporting, and verification of mission-critical applications would improve efficiency and (2) a
       Board-wide process of monitoring and analysis of test results should be established.

       We continue to believe that monitoring and oversight of contingency-related operations across
       divisions will improve the efficiency and effectiveness of the Board’s preparedness for a
       contingency situation. We plan to conduct additional audit work in the area of continuity of
       operations and contingency planning across divisions.


Incident Response & Reporting

       Requirement:
       The Board is required to create and operate a formal incident response capability. Federal law
       requires federal agencies to report incidents to the United States Computer Emergency
       Readiness Team (US-CERT) office within DHS.

       FISMA requires agencies to develop procedures for detecting, reporting, and responding to
       security incidents. SP 800-53 established eight information security controls that are
       recommended for implementing incident response controls. These controls cover operational
       aspects of incident handling, such as training, testing, monitoring, and reporting. NIST
       Special Publication 800-61, Revision 1, Computer Security Incident Handling Guide, states
       that an incident response capability should include the following actions: (1) creating an
       incident response policy and plan; (2) developing procedures for performing incident handling
       and reporting based on the incident response policy; (3) setting guidelines for communicating
       with outside parties regarding incidents; (4) selecting a team structure and staffing model; (5)
       establishing relationships between the incident response team and other groups, both internal
       (such as the legal department) and external (such as law enforcement agencies); (6)
       determining what services the incident response team should provide; and (7) staffing and
       training the incident response team.




2012-AA-B-001                                                                                       17
     Progress to date:
     Prioritizing the handling of individual incidents is a critical decision point in the incident
     response process. The Board has issued an Information Security Incident Handling Guide to
     assist users in appropriately handling security incidents and to identify the general roles and
     responsibilities of the incident response team. The Board has also issued a Device and
     Document Loss Notification Report, which is a form that should be used to report lost or
     stolen Board devices such as mobile phones, storage media, and laptops.

     The ISO continues to send monthly security log information to US-CERT and reports security
     incidents within established time frames. In addition, the ISO has implemented automated
     tools for intrusion detection, centralized log file analysis, and network analyzers for
     prevention of denial-of-service attacks. The Board’s mandatory security awareness training
     for all staff includes references to incident handling guidance and end-user roles and
     responsibilities. The ISO continues to post security-related articles, security incidents, and
     advisories on the Board’s internal website.


     Work to be done:
     The Board’s help desk team is the primary liaison for coordinating, categorizing, escalating,
     and documenting all incoming user requests, including security-related incidents. The
     Information Security Unit within the Board’s Division of IT is responsible for handling
     information security–related incidents. The Information Security Unit uses NIRT, a service of
     the Federal Reserve System, for incidents that are deemed to have higher impact. NIRT offers
     several incident response–related services to the Board and Federal Reserve Banks, including
     incident detection, response, and analysis; however, the ISO has not documented the specific
     responsibilities of Board staff in the event of an incident and the specific services for which
     the Board relies upon NIRT staff in supporting Board incidents.

     The Board does not have a direct agreement for services with NIRT. The Board has a service
     level agreement with Federal Reserve Information Technology that offers operational
     agreements for IT services offered, such as NIRT incident response services. The operation
     agreement for NIRT incident response services specifies services offered, including
     identification of appropriate technical responses, managing communications with management
     and technical staffs, and tracking incident impacts, but it is not specific to the Board. As the
     ISO documents Board and NIRT staffs’ roles and responsibilities the CIO will need to analyze
     how these agreements provide the Board the necessary assurances that (1) Board incidents
     reported to NIRT receive full attention as necessary, (2) incidents are handled in a timely
     manner, (3) agreed-upon coordination among the different technical and business staffs is
     established, and (4) other expected services/outcomes are covered.


     Recommendation 2:
     We recommend that the CIO document the roles and responsibilities of the Board and NIRT
     staffs supporting Board incidents and analyze what changes are needed to existing agreements
     to ensure that the respective roles and responsibilities of NIRT and the Board are specified.




18                                                                                    2012-AA-B-001
       Management’s Response

       The Director of the Division of IT, in her capacity as the CIO for FISMA, stated that she
       agreed with the recommendation and has initiated remediation efforts to address the issue.


       OIG Comment

       In our opinion, the action described by the Director is responsive to our recommendation, and
       we plan to follow up on the division’s actions to ensure that the recommendation is fully
       addressed.


Security Capital Planning and Investment Program

       Requirement:
       FISMA requires agencies to ensure that information security management processes are
       integrated with strategic and operational planning processes. Capital planning and investment
       control refers to a decision making process for ensuring that IT investments integrate strategic
       planning, budgeting, and IT management considerations. NIST Special Publication 800-65,
       Integrating IT Security into the Capital Planning and Investment Control Process (SP 800-
       65), issued January 2005, notes that while security and capital planning have traditionally been
       thought of as separate activities, FISMA charges agencies with integrating the two.

       SP 800-65 distinguishes between enterprise-level and system-level security investments.
       Enterprise-level security investments are ubiquitous across the agency and are designed to
       improve the agency’s overall security posture. Examples include an enterprise-wide firewall
       or intrusion detection system. System-level investments are designed to strengthen a discrete
       system’s security environment, such as strengthening password controls or testing a
       contingency plan. SP 800-65 further states that at the system level, managers should account
       and budget for IT security over the system investment life cycle. This information will flow to
       the enterprise level to support IT compliance and integration activities.

       The DHS FISMA reporting metrics direct IGs to determine whether their agency has
       established and maintains a security capital planning and investment program. DHS outlines
       specific attributes that should be included in such a program, including employment of Exhibit
       53, Agency IT Investment Portfolio, and Exhibit 300, Capital Asset Plan and Business Case
       Summary, to record required information security resources. Federal agencies that receive
       appropriated funding are required to submit these exhibits to OMB annually to request and
       justify their planned budget for IT and information security. The Board does not receive
       appropriated funds from Congress. As such, several of the security capital planning and
       investment program attributes DHS has asked the IGs to evaluate, including use of Exhibit 53s
       and Exhibit 300s, are not directly applicable to the Board.


       Progress to date:

       The Board has an overall governance approach for capital planning and budgeting that covers
       investments in information security. The Division of IT is responsible for financing the
       security of general support systems such as e-mail as well as other elements of the technical
       infrastructure. The Committee on Board Affairs in turn is responsible for approving the
       Board’s overall budget. NIST SP 800-53 states that organizations may designate and



2012-AA-B-001                                                                                       19
     empower an investment review board (or similar group) to manage and provide oversight for
     the information security–related aspects of the capital planning and investment control
     process.


     Work to be done:
     The Division of IT has implemented an IT performance reporting dashboard that is designed
     to capture the business value and performance of the Board’s information systems. Currently,
     the dashboard is focused on providing an overview of performance, such as security patching,
     virus detection, and POA&M reporting. For POA&M reporting, the dashboard provides
     quantitative information on the status of remediation efforts. The dashboard can also be
     considered for use by Division of IT management in identifying or tracking the information
     security investment for remediation efforts.

     Our 2011 FISMA report included as a matter for management’s consideration that, to ensure
     adequate tracking of system security investments, the CIO should (1) enhance the Board’s
     system development methodology by clarifying steps to account and budget for security over
     the system life cycle and (2) analyze how security capital planning information at the system
     and enterprise levels can be integrated into the IT performance dashboard to provide a more
     comprehensive understanding of the business value and performance of the Board’s
     information systems. We continue to believe that the CIO should consider enhancing the
     Division of IT’s system development methodology to account for information security
     expenditures and integrating security capital planning information into the IT performance
     dashboard.




20                                                                                  2012-AA-B-001
Appendix 2
Management’s Comments




2012-AA-B-001           21
Report Contributors
     Robert McMillon, OIG Manager
     Satynarayana-Setty Sriram, Senior IT Auditor
     Andrew Gibson, IT Auditor
     Joshua Dieckert, IT Auditor
     Adam Raley, IT Auditor
     Peter Sheridan, Senior OIG Manager
     Andrew Patchan Jr., Associate Inspector General for Audits and Attestations




Abbreviations
BISPMS                 Board Information Security Program Management System

Board                  Board of Governors of the Federal Reserve System

BS&R                   Division of Banking Supervision and Regulation

CIO                    Chief Information Officer

DHS                    Department of Homeland Security

FISMA                  Federal Information Security Management Act of 2002

GSS                    General Support System

IG                     Inspector General

ISO                    Information Security Office

IT                     Information Technology

NIRT                   National Incident Response Team

NIST                   National Institute of Standards and Technology

NRAS                   National Remote Access Services

OIG                    Office of Inspector General

OMB                    Office of Management and Budget

PIV                    Personal Identity Verification

POA&M                  Plan of Action and Milestones

RMC                    Risk Management Committee

RMF                    Risk Management Framework

SP 800-37              Special Publication 800-37, Revision 1, Guide for Applying the Risk Management Framework to
                       Federal Information Systems

SP 800-39              Special Publication 800-39, Managing Information Security Risk

SP 800-53              Special Publication 800-53, Revision 3, Recommended Security Controls for Federal Information
                       Systems and Organizations

SP 800-65              Special Publication 800-65, Integrating IT Security into the Capital Planning and Investment Control
                       Process

SP 800-137             Special Publication 800-137, Information Security Continuous Monitoring (ISCM) for Federal
                       Information Systems and Organizations

US-CERT                United States Computer Emergency Readiness Team
                                                      OFFICE   OF   INSPECTOR GENERAL




                               Audit Report                                                      2012-AA-B-001




                                            2012 Audit of the Board’s
                                         Information Security Program




                                                            November 14, 2012




 www.federal reserve.gov/oig
www.consumerfinance.gov/oig                   BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
          11/12                                    CONSUM ER FIN ANC IAL PR OTEC TION B UR EAU
